                                            OFFICE OF INSPECTOR GENERAL
                                                                 MEMORANDUM




DATE:         May 12, 2005

TO:           Chairman

FROM:         Office of Inspector General

SUBJECT:      Spyware Survey

The Office of Inspector General (OIG) has completed a survey of spyware within the
Commission. A copy of our Audit Report, entitled "Spyware Survey" (Audit Report No.
05-AUD-02-02), is attached for your review and comment. This survey served to assess
the degree of disruption spyware causes within Commission and provide
recommendation if necessary to eliminate and prevent future spyware infections.

Our survey disclosed two positive observations of the Computer Security Office's (CSO)
response to spyware. The report also identified one high risk finding with two
recommendations for improvement Appendix A. Detailed Finding and Observation,
contains the detailed results of both our audit and information about the finding.
Appendix B. Glossary, lists definitions of terms used in the report

On April 20, 2005, we provided a draft report to the Office of Managing Director (OMD)
for review and comments, hi its response dated May 6, 2005, OMD indicated
concurrence with one recommendation and partial concurrence with the second. OMD
outlined the corrective action to be taken. We have included a copy of the response in its
entirety as Appendix C, Management Response.

Because of the sensitive nature of the information contained in this report, we have marked
all as "Privileged and Confidential, Non-Public - For Internal FCC Use Only" and have
severely limited distribution. Those persons receiving this report are requested not to
photocopy or otherwise distribute this material.

If you have any questions, please contact Thomas Cline, Assistant Inspector General for
Policy and Planning or me at (202) 418-0470.



                                              H. Walker Feaster III

cc:   AMD-PERM
